<html>
<title> - UKRAINE CYBERSECURITY COOPERATION ACT OF 2017; END BANKING FOR HUMAN TRAFFICKERS ACT OF 2017; UNITED STATES-JORDAN DEFENSE COOPERATION EXTENSION ACT; AND WAR CRIMES REWARDS EXPANSION ACT</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


UKRAINE CYBERSECURITY COOPERATION ACT OF 2017; END BANKING FOR HUMAN 
   TRAFFICKERS ACT OF 2017; UNITED STATES-JORDAN DEFENSE COOPERATION 
          EXTENSION ACT; AND WAR CRIMES REWARDS EXPANSION ACT

=======================================================================

                                 MARKUP

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                                   ON

             H.R. 1997, H.R. 2219, H.R. 2646, and H.R. 3851

                               __________

                           DECEMBER 14, 2017

                               __________

                           Serial No. 115-93

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]          


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______
                                 
                                 
                  U.S. GOVERNMENT PUBLISHING OFFICE                    
27-859PDF                  WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0661766946657375726e636a762865696b28">[email&#160;protected]</a>                                  
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                LOIS FRANKEL, Florida
SCOTT PERRY, Pennsylvania            TULSI GABBARD, Hawaii
RON DeSANTIS, Florida                JOAQUIN CASTRO, Texas
MARK MEADOWS, North Carolina         ROBIN L. KELLY, Illinois
TED S. YOHO, Florida                 BRENDAN F. BOYLE, Pennsylvania
ADAM KINZINGER, Illinois             DINA TITUS, Nevada
LEE M. ZELDIN, New York              NORMA J. TORRES, California
DANIEL M. DONOVAN, Jr., New York     BRADLEY SCOTT SCHNEIDER, Illinois
F. JAMES SENSENBRENNER, Jr.,         THOMAS R. SUOZZI, New York
    Wisconsin                        ADRIANO ESPAILLAT, New York
ANN WAGNER, Missouri                 TED LIEU, California
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia
JOHN R. CURTIS, Utah<greek-l>As of 
    12:44 pm 11/29/17 deg.

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page

                               MARKUP ON

H.R. 1997, To encourage United States-Ukraine cybersecurity 
  cooperation and require a report regarding such cooperation, 
  and for other purposes.........................................     2
  Amendment in the nature of a substitute to H.R. 1997 offered by 
    the Honorable Edward R. Royce, a Representative in Congress 
    from the State of California, and chairman, Committee on 
    Foreign Affairs..............................................     8
      Amendment to the amendment in the nature of a substitute to 
        H.R. 1997 offered by the Honorable Adriano Espaillat, a 
        Representative in Congress from the State of New York....    13
H.R. 2219, To increase the role of the financial industry in 
  combating human trafficking....................................    14
  Amendment to H.R. 2219 offered by the Honorable Edward R. Royce    20
H.R. 2646, To reauthorize the United States-Jordan Defense 
  Cooperation Act of 2015, and for other purposes................    21
  Amendment in the nature of a substitute to H.R. 2646 offered by 
    the Honorable Edward R. Royce................................    26
H.R. 3851, To amend the State Department Basic Authorities Act of 
  1956 to provide for rewards for the arrest or conviction of 
  certain foreign nationals who have committed genocide or war 
  crimes, and for other purposes.................................    32

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Eliot L. Engel, a Representative in Congress from 
  the State of New York: Prepared statement......................    35

                                APPENDIX

Markup notice....................................................    48
Markup minutes...................................................    49
Markup summary...................................................    51
The Honorable Dina Titus, a Representative in Congress from the 
  State of Nevada: Prepared statement............................    52



 
 UKRAINE CYBERSECURITY COOPERATION ACT OF 2017; END BANKING FOR HUMAN 
   TRAFFICKERS ACT OF 2017; UNITED STATES-JORDAN DEFENSE COOPERATION 
          EXTENSION ACT; AND WAR CRIMES REWARDS EXPANSION ACT

                              ----------                              


                      THURSDAY, DECEMBER 14, 2017

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 10:10 a.m., in 
room 2172, Rayburn House Office Building, Hon. Ed Royce 
(chairman of the committee) presiding.
    Chairman Royce. The committee will come to order.
    Pursuant to notice, we meet today to mark up four 
bipartisan measures.
    And, without objection, all members may have 5 days to 
submit statements or extraneous materials on today's business.
    As members were notified yesterday, we intend to bring 
these all up en bloc, and so, without objection, the following 
items previously provided to members, or also in your packets, 
they are going to be considered en bloc and are considered as 
read.
    There are four measures here: H.R. 1997, the Ukraine 
Cybersecurity Cooperation Act, Royce amendment 85 in the nature 
of a substitute, Espaillat amendment 68 to Royce amendment 85; 
H.R. 2219, the End Banking for Human Traffickers Act of 2017, 
with Royce amendment 2; H.R. 2646, the United States-Jordan 
Defense Cooperation Extension Act, Royce amendment 84 in the 
nature of a substitute; and H.R. 3851, the War Crimes Rewards 
Expansion Act.
    [The information referred to follows:]<greek-l>H.R. 
1997 deg.

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairman Royce. And I will now recognize myself to speak on 
today's business.
    So we consider H.R. 2219. This is the End Banking for Human 
Traffickers Act. It is going to help law enforcement and 
financial institutions report and identify suspected human 
traffickers so that they can be prosecuted to the full extent 
of the law. As you know, trafficking has devastated tens of 
millions of lives around the world. It is impacted, here in the 
United States, many lives as well.
    The perpetrators of these disgusting acts prey on the 
defenseless in our society, especially underage girls, and 
tragically, it is estimated that forced labor yields more than 
$150 billion in illegal profits every year if we include all 
forms of trafficking. This makes trafficking the third most 
valuable criminal enterprise in the world.
    If we are going to end this horrific trade, we have got to 
start by cutting traffickers off from their financial system. 
These criminals are laundering profits through financial 
institutions far too easily. This will put a stop to that.
    Next, we consider H.R. 2646. This is the United States-
Jordan Defense Cooperation Extension Act. And I want to thank 
our chairman emeritus, Ileana Ros-Lehtinen. Thank you for your 
work on this bill. It is going to extend NATO plus treatment 
for Jordan another 3 years and encourage greater security and 
economic cooperation between our two nations.
    Jordan, as you know, is a key partner in the fight against 
ISIS. It is a critical pillar of stability in a volatile 
region. And 2 weeks ago, the committee sat down with King 
Abdullah to discuss how we can continue to work together to 
defeat extremism, deny terrorists groups safe haven and 
increase economic opportunity and political stability in 
Jordan.
    Next, I want to thank Representatives Boyle and 
Fitzpatrick. They introduced H.R. 1997, the Ukraine 
Cybersecurity Cooperation Act. And this bill encourages the 
Secretary of State to strengthen cybersecurity cooperation with 
Ukraine. Ukraine is on the front lines of digital combat, as we 
know. Many global cybersecurity analysts believe Moscow is 
using Ukraine as a cyber war testing ground. By working with 
Kiev, we can harden our defenses against the same kind of 
aggression.
    And, finally, I want to thank Representative Virginia Foxx 
and Ranking Member Engel for their leadership on 3851. This is 
the War Crimes Rewards Expansion Act. The Department of State 
Rewards Program has been critical to preventing international 
terrorism, narcotics trafficking, and other criminal activity.
    This bill clarifies that the existing authority to offer 
rewards leading to the arrest or conviction of foreign 
nationals can be used in connection with domestic prosecution 
of foreign war criminals in U.S. courts.
    And I will now recognize Mr. Engel for his remarks.
    Mr. Engel. Mr. Chairman, thank you for calling today's 
markup. We were here in this room last night with our party, 
and I know all the members that attended it had a good time. 
There are elves all over the desks right now. Members can look 
at themselves and see how they look as elves. So no one can 
ever say we don't do serious things on the Foreign Affairs 
Committee.
    I want to thank you for calling today's markup. This is a 
great example of what you and I have both tried to do, along 
with members of this committee, work in a bipartisan way to 
pass legislation that supports America's interests around the 
world and enhances our national security. So I thank you again 
for being a good partner in that effort and for helping us 
close out the year on a positive note.
    We have got four good bipartisan measures before us today, 
and I want to thank all our members for their hard work. I 
support all these measures and, in the interest of time, would 
like to enter my full remarks into the record.
    I just want to point out, the last bill with Virginia Foxx, 
I have worked with her on the bill, and I am very pleased to 
work with her passing this piece of legislation.
    As always, I thank all of our members for their efforts on 
these pieces of legislation, and the chairman for his 
leadership.
    And I yield back.
    [The prepared statement of Mr. Engel follows:]
  
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Chairman Royce. Thank you.
    We go to Ileana Ros-Lehtinen first here.
    Ms. Ros-Lehtinen. Thank you so much, Chairman Royce and 
Ranking Member Engel, for bringing these bipartisan measures 
before us today. This dynamic duo continues to set the standard 
for bipartisan cooperation in the Congress.
    And thanks to both of you for working with me on H.R. 2646, 
the United States-Jordan Defense Cooperation Extension Act, a 
bill that I am proud to have authored alongside my co-chair, 
Ted Deutch, as well as our colleagues Hal Rogers, Nita Lowey, 
and Adam Schiff.
    I also want to recognize and give a warm welcome to the 
Jordanian Ambassador to the United States who is here with us 
today in the audience.
    Madam Ambassador, as always, it is great to see you, and I 
look forward to our continued work together.
    As one our closest allies in the Middle East, Jordan is on 
the front lines against ISIS and other multiple crises in the 
region. They impact our national security interests, and my 
bill extends the authorities that I authored and our committee 
passed in 2015 providing continued eligibility for enhanced 
U.S. defense cooperation with Jordan, including a higher dollar 
threshold for notification of military sales and an expedited 
congressional review process. This bill supports the 
negotiation of a new, enhanced memorandum of understanding. It 
authorizes the establishment of an enterprise fund, allowing 
the best and brightest from the U.S. investment and business 
community to work with our Jordanian counterparts and jump 
start the Kingdom's private sector, as well as help our 
economy.
    And, lastly, Jordan's military and economic success are 
critical for U.S. priorities in the Middle East, and I urge all 
of my colleagues to support this important bill. Thanks for 
your help on this.
    Thank you, Mr. Chairman.
    I yield back.
    Chairman Royce. Thank you, Ileana.
    We go to Bill Keating of Massachusetts.
    Mr. Keating. Thank you, Mr. Chairman.
    Mr. Chairman, I am proud to join you in sponsoring H.R. 
2219, End Banking for Human Trafficking Act, scheduled to 
advance today. This bill is a commonsense piece of bipartisan 
legislation to tackle financing human trafficking. The 
International Labour Organization estimated in 2012 that there 
were nearly 21 million victims of human trafficking worldwide, 
21 million.
    Criminals engaged in this horrific business of human 
trafficking must be stopped and held accountable so that number 
does not continue to rise. Being successful in eliminating 
these despicable criminal networks requires a strategic 
approach. As I learned as a district attorney, when confronted 
by complex security and law enforcement problems, the best 
approach is to follow the money.
    Human trafficking is one of the most lucrative, one of the 
top three, criminal enterprises in the world, and these 
criminals are taking advantage of our banking and financial 
institutions for their own gain at the expense of so many 
innocent lives. We can do better. And this piece of legislation 
is one step toward eliminating the modern slavery of our time.
    This bill strengthens interagency cooperation and requires 
action to review and improve current anti-money laundering 
programs so they better target human trafficking. The 
information is out there. We just need the right tools in the 
right hands so the perpetrators are no longer able to profit 
from these heinous crimes and can be brought to justice.
    I thank the chairman for joining together with me in 
bringing this legislation forward and urge my colleagues to 
support it today.
    I yield back.
    Chairman Royce. Thank you, Mr. Keating. We go to 
Congressman Dana Rohrabacher.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman.
    And I join with my other colleagues in thanking you and 
Ranking Member Engel for providing the leadership we need for a 
bipartisan committee and efforts, which are exemplified by the 
four bills that you are presenting us today.
    Let me say: I am very pleased when you talk about ending 
the banking for human trafficking. I think that we need to 
focus more on the banking and the financial elements to those 
things which we are upset with around the world, and this is a 
very good thing to start with.
    But what we have is the, especially in the Third World, you 
have just wealth being sucked out of those countries, and the 
poorest people of the world are suffering because of corruption 
in their country by their leaders, and they put the money in 
banks, in Western banks. We need to pay attention to that. That 
is a crime against humanity as well, just as this human 
trafficking, especially with young girls. This is a way we can 
combat these evils in the world today.
    Second of all, Mr. Chairman, I would like to thank you and 
Ranking Member Engel for focusing on King Abdullah in Jordan. 
We have met with him a number of times. King Abdullah and 
Jordan itself are pivotal to the well-being and security of the 
United States of America. And I would only hope that we can be 
as positive and as cooperative with President el-Sisi of Egypt.
    I believe these two leaders in the Middle East, if America 
is to live at peace in the future, those two national leaders 
have to succeed. I will vote yes on your en bloc amendments, 
and thank you very much for providing such very necessary 
legislation.
    Chairman Royce. Thank you, Dana.
    Brendan Boyle of Pennsylvania.
    Mr. Boyle. I thank the chair and the ranking member for 
calling up my bipartisan bill, H.R. 1997, the Ukraine 
Cybersecurity Cooperation Act, for consideration in today's 
markup.
    I introduced this bill with my colleague from the other 
side of the aisle, Congressman Brian Fitzpatrick, also from 
Pennsylvania, which encourages cooperation between the United 
States and our ally, Ukraine, on matters of cybersecurity and 
requires a report from the U.S. State Department on the best 
practices to protect against future cyber attacks to the 
benefit of both nations.
    I believe cybersecurity is the national security challenge 
of our time. Cyber warfare is cheap to carry out and easy for 
adversaries to hide behind, making it particularly damaging, 
difficult to detect, and impossible for the victim to quickly 
possible.
    In Ukraine, it is no coincidence that cyber attacks against 
Ukraine increased when the Ukrainian people self-organized to 
demand an open and democratic society in 2014. Days before 
Ukraine's 2014 Presidential election, hackers infiltrated the 
Central Election Commission with a series of attacks that 
disabled the website in an attempt to sow distrust in the 
outcome of the election of President Poroshenko. In 2015, 
hackers remotely shut down power at three regional electricity 
distribution companies, creating a power outage affecting over 
200,000 customers for approximately 1 to 6 days. Last year, 
specialists discovered a malware-infected computer at an 
airport in Ukraine, evidence of a suspected cyber attack. 
Attempted cyber attacks have only continued and since, in fact, 
have escalated. Both the United States and Ukraine have clear 
interests in strengthening our cyber defenses. Moreover, our 
cooperation toward this goal will send a strong, important 
signal of Western support for Ukraine at a time when it is 
literally fighting to protect its democracy and its 
independence.
    We must stand strong with the people of Ukraine and our 
NATO allies and come together in furtherance of our 
cybersecurity defenses. This bill is a reasonable first step to 
do just that.
    So, again, I thank the chair and the ranking member for 
their support of this bill. I also want to take a moment and 
thank my top staffer on these matters, Carly Frame, who has 
done such a wonderful job and has worked so hard on this bill, 
and I urge all of my colleagues to support it and yield back.
    Chairman Royce. Brendan, thank you.
    We go to Steve Chabot of Ohio.
    Mr. Chabot. Thank you, Mr. Chairman.
    And we appreciate you convening this markup today. And I 
support all four bills and would like to speak out very 
favorably on your bill, H.R. 2219, the End Banking for Human 
Traffickers Act of 2017.
    This bill helps address a critical issue protecting women 
and girls who face challenges literally at birth, and millions 
of children around the globe, mostly girls, are not properly 
registered, making it easier for those children that disappear 
in the human trafficking, which is what your bill is about, or 
to be coerced into childhood marriage or forced labor and a 
whole range of other things.
    That is why I had introduced legislation in the House, and 
Marco Rubio in the Senate, to encourage birth certificates and 
national registries for children in developing countries. We 
passed that legislation, the Girls Count Act, out of this 
committee, and it was signed into law a while back by President 
Obama. And just this fall, the House passed another bill 
offered by our Democratic colleague from Illinois, Robin Kelly, 
and myself, the Protecting Girls' Access to Education Act, 
which called on the Secretary of State and the Administrator of 
USAID to prioritize access to primary and secondary education 
in conflict zones to ensure that millions of child refugees 
will have a better chance of escaping violence, extremism, and, 
again, human trafficking, which is an issue that we talk about 
a lot but the world still struggles with.
    Unfortunately, the number of displaced people around the 
world continues to grow due to ongoing armed conflicts in 
places like Syria and South Sudan and, more recently, Burma. 
Human trafficking thrives in conflict zones, and we always must 
be cognizant of that. It is our responsibility as leaders of 
the free world to step up and ensure that human traffickers 
face every possible hurdle as they seek to coerce women and 
children into, literally, slavery in these modern times.
    So I commend Chairman Royce for leading this effort. I urge 
my colleagues to support all four of the measures, and I yield 
back.
    Chairman Royce. Thanks, Steve.
    Brad Schneider of Illinois. Are you seeking time, Brad?
    Mr. Schneider. I am not, but thank you.
    Chairman Royce. Okay. We will go to David Cicilline.
    Mr. Cicilline. Thank you, Mr. Chairman.
    Thank you to you and to Ranking Member Engel for holding 
this markup today. I am pleased that the committee is taking up 
these important bills to combat human trafficking, provide 
increased cyber assistance to Ukraine, improve our efforts to 
fight terrorism and transnational crime, and continue and 
strengthen our cooperation with Jordan on combatting terrorism, 
and assisting those affected by conflict in the Middle East.
    I am particularly pleased to support H.R. 2646, the United 
States-Jordan Defense Cooperation Extension Act, which would 
allow for the creation of an enterprise fund for Jordan to 
attract private investment and help entrepreneurs and the small 
businesses create jobs and to achieve sustainable economic 
development. Jordan is a critical ally in the fight against 
global terrorism, and we, the United States, should be an 
effective partner in helping them to address the challenges 
they face on their borders as a result of the ongoing civil 
war.
    Any assistance to Jordan must account for the incredible 
burden they have taken on in addressing the refugee crisis 
stemming from the Syrian civil war. Jordan hosts approximately 
1.3 million refugees, and Syrians make up more than 10 percent 
of the total Jordanian population. Jordan's willingness to 
assist and accommodate refugees from this horrific war is to be 
applauded, especially in contrast to the United States' 
unwillingness to open its borders to refugees. But in this 
context, I want to bring up the issue of their Rukban refugee 
camp at the Jordanian-Syrian border, where 50,000 people are 
stranded, mostly women and children, without food, water, or 
medical assistance. International NGOs in the United Nations 
have called for the immediate and unhindered resumption of the 
humanitarian assistance to these vulnerable Syrians.
    I know we raised this issue with the King when he was here 
a few weeks ago, and I hope our two countries can work together 
to ensure all refugees have access to basic necessities.
    And, again, I want to thank you, Chairman Royce and Ranking 
Member Engel, for holding this markup today. And I yield back 
the balance of my time.
    Chairman Royce. Thanks David.
    We go to Judge Ted Poe of Texas.
    Mr. Poe. Thank you, Mr. Chairman. I want to thank you and 
the ranking member for bringing these pieces of legislation 
before us today. I support all the bills and will speak on as 
many as I can.
    Your bill, the End Banking for Human Traffickers is a vital 
piece of legislation. It takes aim at what clearly is, as we 
know, modern-day slavery. Even though Congress and other 
nations are starting to recognize human trafficking and passing 
legislation to combat it, it continues to grow, and it is a 
scourge of the world. And it, as my friend Mr. Keating has 
mentioned, brings in a lot of money. And the reason it is so 
profitable is because, unlike drugs, drugs are sold one time, 
little girls are sold multiple times a day. And also the 
apprehension for drug offenders is higher than the apprehension 
for these traffickers. And it is also the fact that the chance 
of being captured is smaller and punishment is smaller. So 
those are reasons why this continues to be the number two 
moneymaker for criminal enterprises in the world, and this is 
something that the world needs to deal with. I appreciate your 
legislation on this.
    Also, I would support the other three bills. Our 
partnership with Jordan is very vital in the Middle East. I 
want to recognize Ambassador Kawar, who is here today. I 
appreciate her efforts in a situation that we had regarding an 
American soldier that was murdered in Jordan and how the 
Jordanian Government worked on that. And I appreciate her and 
the relationship we have in Jordan, and I hope that we could 
continue to be supportive of each other on the war on terror.
    And the Ukraine Cybersecurity Act, Mr. Boyle's bill, is an 
excellent piece of legislation. My opinion is the United States 
is not doing enough to support Ukraine in their fight against 
the Napoleon of Siberia, as I call him, Putin, trying to take 
over their nation. And this will help Ukraine, but it will also 
help the United States and hopefully continue to try to thwart 
the Russian aggression that is taking place in many places of 
the world.
    I also support Ms. Foxx's bill, and I commend the chairman 
and the ranking member for bringing this legislation. All four 
pieces of the legislation are excellent. And I will yield back 
my time.
    Chairman Royce. Thank you, Judge.
    We go to Adriano Espaillat.
    Mr. Espaillat. Thank you, Mr. Chairman. Chairman Royce and 
Ranking Member Engel, thank you so much. It is always nice to 
see a bipartisan effort that comes out of this committee 
consistently. Thank you both for your leadership in ensuring 
that this happens every time that we are here.
    I am proud to lend my support to the four bills that are 
before us today. I would particularly like to commend Chairman 
Royce on his bill, H.R. 2219, the End Banking for Human 
Trafficking Act. This will hopefully get us one step closer to 
curbing money laundering related to human trafficking.
    Human trafficking is a form of modern-day slavery, and 
using the tools at our disposal to eliminate this cruel 
practice is a step in the right direction. Lastly, I am glad to 
support Congressman Brendan Boyle's bill, H.R. 1997, the 
Ukraine Cybersecurity Cooperation Act. Ukraine has been a 
susceptible country to cyber attacks from Russia, and I was 
glad that my amendment was included in this particular 
initiative. This will help improve Ukraine's ability to respond 
to Russian-supported disinformation and propaganda efforts in 
cyberspace, including through social media and other outlets.
    As we saw in May, the Ukrainian Government blocked Russia's 
homegrown social media platforms, citing pro-Russian propaganda 
and offensive cyber operations as threats to the Ukrainian 
national security. Russia has been a bully when it comes to 
using cyber attacks to influence elections all over the world, 
and election system software has been utilized for this 
purpose. Given our long diplomatic relationship with the 
Ukraine, the U.S. should reaffirm its commitment to helping 
them push back against social media and other Russian cyber 
attack.
    Again, thank you, Mr. Chairman, Ranking Member, for all the 
work that you do. I will yield back the remaining part of my 
time.
    Chairman Royce. Thank you.
    We go to Dan Donovan of New York.
    Mr. Donovan. Thank you, Mr. Chairman.
    I support all of the bills that are being marked up today. 
I would like to speak on the End Banking for Human Traffickers 
Act that you have introduced, and it seeks to combat human 
trafficking by taking aim at traffickers' finances. I support 
any measure that seeks to put an end to this deplorable 
practice. I fought for adult and child victims as a prosecutor, 
and I am still fighting for them today as a Member of Congress.
    Not only am I proud to support H.R. 2219, but I am also 
proud to help bring an end to the exploitation of children by 
introducing today a new bill, the CREEPER Act. The CREEPER Act 
seeks to ban the importation of lifelike child sex dolls, which 
is newest outlet for pedophiles. Emerging psychology on the 
topic says these obscene dolls encourage the abuse of real 
children. They endanger our children by providing near, real-
life training for the worst among us to target the most 
vulnerable.
    I call upon my fellow members to continue to work to 
protect children from human trafficking and other sex crimes, 
and I thank Chairman Royce for this important piece of 
legislation that will help to do just that.
    And I yield the remainder of my time.
    Chairman Royce. Mr. Joaquin Castro of Texas.
    Mr. Castro. Thank you, Chairman.
    I just wanted to speak briefly on H.R. 1997, and thank my 
colleague Brendan Boyle and all those who are supportive of the 
bill. You know, it is important that, in our future, we have 
stronger cybersecurity cooperation, but also I think ultimately 
a cybersecurity mutual defense pact. So much of our mutual 
defense is set up around physical intrusions against a nation 
or physical aggression against a nation, but we have had a very 
painful lesson in the last few years about the effects of cyber 
intrusions and the chaos that it can sow within a country. And 
other nations, such as Ukraine, have also experienced that.
    So, as Brendan mentioned, I think legislation like this is 
just the beginning to what I see as a full-fledged 
cybersecurity mutual defense treaty at some point.
    Thank you. I yield back.
    Chairman Royce. Thank you. We go to Joe Wilson of South 
Carolina.
    Mr. Wilson. Thank you, Mr. Chairman.
    I appreciate the opportunity to be a cosponsor today of 
House Resolution 3851, the War Crimes Rewards Expansion Act. 
And, today, American families benefit from the leadership and 
coordination of Chairman Ed Royce and Ranking Member Elliot 
Engel in marking up this important legislation and the three 
other bills that are pending.
    The legislation before us in regards to the War Crimes 
Rewards Expansion Act clarifies statutes that are beneficial to 
the American people. This Department of State's rewards program 
helps prevent international terrorism, international narcotics 
trafficking, serious violations of international humanitarian 
law, transnational organized crime, and other criminal acts by 
authorizing the Secretary of State to offer rewards.
    This bill clarifies that the existing authority to offer 
rewards leading to the arrest or conviction of foreign 
nationals for war crimes, crimes against humanity, and genocide 
can be used in connection with the domestic prosecution of 
foreign nationals under U.S. law, such as statutes 
criminalizing war crimes or genocide, by adding a reference to 
``under United States law.''
    I am grateful for the leadership also of our colleague, 
Congresswoman Virginia Foxx of North Carolina, for sponsoring 
this important legislation with Congressman Eliot Engel, Randy 
Hultgren, and Congressman Jim McGovern.
    We also should recognize and appreciate H.R. 2646, the 
United States-Jordan Defense Cooperation Extension Act, as 
being significant, promoting new job opportunities for the 
people of Jordan.
    On my visits to Amman, I have always been impressed by the 
young entrepreneurs who I have had the opportunity to meet. It 
is so inspiring, and it has to be so meaningful to the people 
of the Middle East.
    Thank you, Ambassador, for being here today.
    I yield back my time.
    Chairman Royce. Ted Deutch of Florida.
    Mr. Deutch. Thank you, Mr. Chairman.
    Thanks to you and Ranking Member Engel.
    I want to echo my support for all the measures before us 
today. At a time when the American public is rightly concerned 
about Putin's aggressive posture in Russia, meddling in the 
U.S. elections, and sowing instability in Europe, we have a 
natural partner in Ukraine. Ukraine has been on the front lines 
of Russian aggression. Russia has launched numerous cyber 
attacks against Ukraine, including knocking out large swaths of 
its electric grid and massive attacks. And the capabilities 
that Russia develops against Ukraine could one day be used 
against us here at home. That is why the Ukraine Cybersecurity 
Cooperation Act is so important.
    I want to thank Representatives Boyle and Fitzpatrick for 
bringing that forward. We have an interest, both in defending 
Ukraine from Russian aggression and in securing our own 
defenses, and helping Ukraine actually teaches us best 
practices for hardening our own defenses against potential 
Russian attacks.
    In particular, I also want to thank the chairman and 
ranking member for bringing forward H.R. 2646, the United 
States-Jordan Defense Cooperation Extension Act. Chairman Ros-
Lehtinen and I, along with Representatives Rogers, Lowey, and 
Schiff, introduced the bill to reauthorize the U.S.-Jordan 
Defense Cooperation Act of 2015. And the bill comes at a 
critical time. Jordan is key to stability in the region that 
now faces a slew of destabilizing forces. As a result of the 
conflict next door in Syria, Jordan, which was already home to 
hundreds of thousands of refugees, has now taken in an 
additional 650,000 Syrian refugees. That is just the official 
U.N. number. The true number is much higher. This influx has 
taken a toll on Jordan's resources at a time when they are 
helping us in our fight against ISIS. To help ease the burden, 
the U.S. assistance to Jordan is focused on emergency services, 
education, and growing access to clean water. The bill before 
us will ensure that Jordan gets both the military and economic 
assistance it needs to care for refugees and to fight back 
against ISIS. It also authorizes the establishment of an 
enterprise fund to spark private investment in Jordan's economy 
and help create jobs for entrepreneurs and small business 
owners. And just as the U.S. won't waiver in its support for 
Jordan, we expect Jordan will not waiver in its support for 
refugees, including the 50,000 Syrian refugees currently in 
dire conditions at the Rukban refugee camp that my colleague, 
Representative Cicilline, spoke about earlier.
    I want to thank my colleagues for their support and 
commitment to Jordan's stability and strategic partnership as 
we continue to end the March of ISIS and seek a political 
resolution to the crisis in Syria. Thanks again to the chairman 
and ranking member, and I urge my colleagues to support all the 
measures before us.
    Chairman Royce. Thank you, Mr. Deutch.
    Noting we have got less than 10 minutes left on the floor 
vote, we will now go to Gregory Meeks.
    Mr. Meeks. Thank you, Mr. Chair. Noting that, I will be 
very brief. First, I want to say the committee has done it 
again. Every measure here on this markup, it is a pleasure 
coming to this markup because we are all together on it. 
Whether you are talking about the United States-Jordan Defense 
Cooperation Extension Act, Jordan being one of our biggest 
allies, in taking all of the individuals in that they have 
taken in and working in that region for us, outstanding; War 
Crimes Rewards Expansion Act, you know, we have got to go after 
those bad actors, outstanding; End Banking for Human 
Traffickers Act of 2017, we have got to stop. This is, you 
know, the year 2017. To think that we still have human 
traffickers and individuals who are trying to finance them, 
particularly in light of the recently discovered Libyan slave 
trade, which is another form of human trafficking that must be 
stopped. This bill would make it more difficult for those 
profiting from the human trafficking and slave trade of African 
migrants in Libya to launder those funds. Excellent bill.
    And, finally, of course, I thank you and, of course, Mr. 
Boyle and Fitzpatrick for their leadership on H.R. 1997, 
highlighting the need for deeper cooperation on cybersecurity 
with the Ukraine. As the ranking member of the Subcommittee on 
Europe, I am acutely aware and in support of the steady but 
tumultuous path of democracy that Ukraine is forging. In fact, 
the best Russian policy today is a good Ukraine policy, one 
that helps protect the freedoms Ukrainians fought for on 
Maidan. These freedoms and push toward the idea of Europe is an 
example for what Russia may become one day. The brave civil 
society actors and reformers in government face a range of 
difficulties. And this bill works to address a very important 
one: Cybersecurity. Transatlantic support for Ukraine's 
security should be comprehensive. This bill homes in on one of 
the most difficult facts of security and offers guidance on how 
we can help. Cybersecurity cooperation is not expensive, but it 
is effective. And I am extremely pleased we are forging ahead 
in this area.
    I yield back.
    Chairman Royce. Thank you, Greg.
    Do any other members seek recognition?
    Hearing no further requests, the question occurs on the 
items considered en bloc.
    All those in favor, say aye.
    All those opposed, no.
    In the opinion of the chair, the ayes have it. And the 
measures considered en bloc are agreed to.
    So, without objection, the measures considered en bloc are 
ordered favorably reported, as amended. Staff is directed to 
make any technical and conforming changes, and the chair is 
authorized to seek House consideration under suspension of the 
rules.
    That concludes our business for today. And I want to, 
again, thank Ranking Member Engel, thank all our committee 
members here for their contributions and their assistance with 
today's markup.
    The committee stands adjourned.
    [Whereupon, at 10:43 a.m., the committee was adjourned.]

                                  
                              

                            A P P E N D I X

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
